<html>
<title> - U.S. POLICY TOWARD TIBET: ACCESS, RELIGIOUS FREEDOM, AND HUMAN RIGHTS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 U.S. POLICY TOWARD TIBET: ACCESS, RELIGIOUS FREEDOM, AND HUMAN RIGHTS

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 6, 2017

                               __________

                           Serial No. 115-102

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                                             
                                __________
		                                      
		       
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
 27-756PDF                  WASHINGTON : 2018                     
		                 
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81e6f1eec1e2f4f2f5e9e4edf1afe2eeecaf">[email&#160;protected]</a> 
                       

                                
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah<greek-l>As of 
    12:44 pm 11/29/17 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                
                                ------                                

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Richard Gere, chair of the Board of Directors, International 
  Campaign for Tibet.............................................    10
Mr. Tenzin Tethong, director of the Tibetan Service, Radio Free 
  Asia...........................................................    20
Mr. Carl Gershman, president, National Endowment for Democracy...    25

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted S. Yoho, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on Asia and the 
  Pacific: Prepared statement....................................     3
Mr. Richard Gere: Prepared statement.............................    14
Mr. Tenzin Tethong: Prepared statement...........................    22
Mr. Carl Gershman: Prepared statement............................    27

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Prepared statement......................    48
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    50
Questions for the record submitted by the Honorable Dina Titus, a 
  Representative in Congress from the State of Nevada............    52

 
 U.S. POLICY TOWARD TIBET: ACCESS, RELIGIOUS FREEDOM, AND HUMAN RIGHTS

                              ----------                              


                      WEDNESDAY, DECEMBER 6, 2017

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:40 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ted Yoho 
(chairman of the subcommittee) presiding.
    Mr. Yoho. The subcommittee will come to order. Members 
present will be permitted to submit written statements to be 
included in the official hearing record.
    Without objection, the hearing record will remain open for 
5 calendar days to allow statements, questions, and extraneous 
material for the record, subject to length limitations in the 
rules.
    As a friendly reminder, I would like to remind audience 
members that disruption of committee proceedings is against the 
law and will not be tolerated. Although wearing themed shirts 
while seated in the hearing room is permissible, holding up 
signs during the proceedings is not. Any disruptions will 
result in suspension of the proceedings until Capitol Police 
can restore order.
    With that, I would like to say good afternoon and thank you 
to my colleagues and the panel for joining us here today for 
this discussion of Tibet. It is a turbulent time in 
international relations, particularly in the Asia-Pacific 
region where security concerns dominate policy discussions 
daily. In this environment, some important issues are getting 
far too little attention, especially on the international 
stage, and the status of Tibet is one of these issues. It is an 
important moment to shine a light on the events in Tibet, 
especially with significant legislation on this topic pending 
before this committee.
    Tibet's exiled spiritual leader, the 14th Dalai Lama, and 
other Tibetan leaders in exile convened a first of its kind 
conference in October, the Five-Fifty Forum. The objective was 
to establish a 5-year plan for negotiations with China on 
Tibet's future or, if negotiations fail, a plan for 50 more 
years of resistance. The context of these discussions is a 
period of increased uncertainty about Tibet's future. The Dalai 
Lama has advocated a compromise, called the Middle Way, seeking 
autonomy within China for the people of Tibet rather than 
independence from China.
    But the Tibetan people and the world are increasingly 
forced to consider what will happen after the Dalai Lama's 
leadership. It is still unknown how the Dalai Lama will choose 
to determine his succession and reincarnation, but China, 
having kidnapped the Panchen Lama as a child in 1995 and put an 
imposter in his place, may attempt to appoint a fraudulent 
successor. A result that is seen as illegitimate or intolerable 
by the people of Tibet could cause a wave of protest and 
resistance, ushering in new heights of oppression.
    Human rights and personal freedoms in Tibet are already in 
a poor and worsening state. According to the State Department's 
2016 Human Rights Report, the Government of China engages in 
the severe repression of Tibet's unique religious, cultural, 
and linguistic heritage by, among other means, strictly 
curtailing the civil rights of the Tibetan population, 
including the freedoms of speech, religion, association, 
assembly, and movement. The authorities have used heavy-handed 
and violent tactics to maintain control in Tibet, especially in 
response to unrest, including extrajudicial killings, torture, 
arbitrary arrests, extrajudicial detentions, and house arrests. 
And Tibet remains extremely isolated. The flow of information 
in and out of Tibet is tightly restricted. Tibetans are 
prevented from obtaining passports and moving freely, and 
foreigners, especially journalists and officials, are 
frequently denied access. I hope that today the panel can 
provide the subcommittee with suggestions for policy Congress 
can pursue to push back against these abuses that we see too 
often coming out of China.
    Fortunately, there are two pieces of legislation pending 
before the subcommittee that aim to do just that, and I look 
forward to the witnesses and their impressions of these bills. 
Representative McGovern's Reciprocal Access to Tibet Act of 
2017 would promote access to Tibetan areas by denying U.S. 
visas to Chinese Government officials who are involved in 
restricting access to Tibet. And Chairman Emeritus Ros-
Lehtinen's H. Con. Resolution 89 provides comprehensive 
reassertion of U.S. policies toward Tibet, underscoring the 
importance of the Tibetan Policy Act and clarifying the sense 
of Congress on a number of important issues relating to Tibet.
    In addition to these measures, I am looking forward to 
hearing suggestions for other actions the subcommittee may take 
to advance human rights, religious freedom, and access in 
Tibet. Once again, I would like to thank our panel for joining 
us today and for your patience while we had to go down and do 
our constitutional duty of voting.
    And, without objection, the witnesses' written statements 
will be entered into the hearing record.
    And I now turn to my ranking member and friend for any 
remarks he may have, Mr. Sherman.
    [The prepared statement of Mr. Yoho follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Sherman. Thank you, Mr. Chairman, for holding these 
hearings on this important issue of American policy and human 
rights. Ten years ago, in October 2007, Congress awarded His 
Holiness the Dalai Lama the Congressional Gold Medal in 
recognition of his outstanding contributions to peace, 
nonviolence, human rights, and religious understanding.
    Unfortunately, in the decade since, China's suppression of 
Tibet has continued and intensified. China has not held 
discussions about Tibet's status with the Dalai Lama's 
representatives since January 2010. In 2015, China stated that 
there is no prospect of granting much autonomy to Tibet. This 
is regrettable because, for most of history, Tibet was either 
highly autonomous or completely independent. China has declared 
that it alone would make the decisions on selecting the next 
Dalai Lama. What an outrageous interference in religion and 
freedom. China has encouraged the migration of Han Chinese in 
Tibetan areas. China continues its political crackdown on 
Tibet.
    The State Department's 2016 Report on Human Rights 
Practices notes that the Chinese Government engaged in severe 
repression of Tibet's unique religious, cultural, and 
linguistic heritage. China has clamped down on the flow of 
information into and about Tibet. It imposed restrictive 
regulations on religious practices, censored Buddhist 
literature and information, and demolished Tibetan Buddhist 
sites, and placed monasteries under its control, and has 
imprisoned Tibetan prisoners of conscience.
    One way in which Tibet has been illustrated for us is 
exemplified by Mr. Gere here, and that was the fine movie that 
was made. I am concerned that Chinese control and influence 
over media would make creating another movie difficult or 
impossible. Chinese interests are strongly involved in a large 
proportion of the movie screens in the United States. And, of 
course, China has this policy of only admitting a certain 
number of movies into China so they can punish any studio that 
they don't like in ways that North Korea could--well beyond 
anything North Korea tried to do to Sony. So to think that we 
allow China to exercise that kind of control while giving them 
free access to our markets is something Congress needs to 
review.
    China has increased its military presence in Tibet and has 
built roads, airfields, and infrastructure that could be used 
to transport and support Chinese military forces repressing 
people in Tibet. This not only impacts the Tibetan population 
but also affects India. We are trying to build a strategic 
relationship and partnership with India, and we have got to 
commend India for providing refuge to over 90,000 Tibetans, 
including the Dalai Lama himself, who have had to flee Chinese 
repression.
    Congress must act quickly to counter China's repressive 
tactics and policies toward Tibet. This is important for our 
own standing as leaders in the world's human rights. There are 
two bills before us this year. I would recommend that everyone 
on this subcommittee and on the full committee cosponsor both 
of them, the Reciprocal Access to Tibet Act of 2017, and 
Expressing the Sense of Congress with Respect to United States 
Policy Toward Tibet.
    Looking at the second bill first, H. Con. Res. 89, 
introduced by our chairman along with myself, Ileana Ros-
Lehtinen, and Ranking Member Engel, asked the administration to 
make Tibet an important issue in U.S.-China relations to fully 
implement the Tibetan Policy Act of 2002 and to encourage China 
to engage in dialogue with the Dalai Lama or his 
representatives leading to a negotiated agreement with respect 
to Tibet.
    The second bill is H.R. 1872, introduced by Congressman 
McGovern, which would deny Chinese Government officials access 
to the United States if they are responsible for restricting 
American journalists and American diplomats from traveling to 
Tibet.
    In 2008, when China's military crackdown on Tibetans 
occurred, I was pleased that this House voted overwhelmingly 
for House Resolution 1077, calling upon the Chinese Government 
to end its crackdown in Tibet and to begin substantive dialogue 
with the people and the leaders of Tibet. It is disheartening 
to see that, in the 9 years since, China's suppression of Tibet 
has increased.
    And a few months ago, in June, I had the pleasure of 
talking to Mr. Gere about Tibet. I look forward to hearing from 
him, Mr. Gershman, and Mr. Tethong on how Congress can support 
the Tibetan people at this important time.
    And I yield back.
    Mr. Yoho. Thank you, sir.
    Now we will go to opening statements by members.
    Mr. Chabot?
    Mr. Chabot. Thank you, Mr. Chairman, for holding this 
important hearing and very timely.
    China's decades-long oppression of Tibet is a constant 
example of the PRC's total disregard for religious freedom and 
human decency. Just this past weekend, another Tibetan monk set 
himself on fire to protest China's ongoing tyranny. China has 
systematically marginalized Tibet for over 50 years now, and I 
want to commend Mr. Gere for being a leader on this issue for 
such a long time, having met and heard him testify a number of 
times here.
    And thank you for sticking with it over the years. We 
really appreciate that.
    China has reneged on their commitment to allow Tibet to 
operate as an autonomous region and failed to guarantee its 
people their personal and religious freedoms. Unfortunately, 
China's crackdown on Tibetans has consistently increased in 
recent years resulting in numerous violent clashes and the 
death of many innocent people. I am deeply concerned that 
China's growing global assertiveness puts the future of Tibet 
and the Tibetan people at an even greater risk. I believe that 
Tibet's struggle for autonomy and religious freedom could be in 
real jeopardy. That is why my colleagues and I must continue to 
demonstrate to the global community that the human rights of 
the Tibetan people must be respected by China.
    U.S. officials should implore China to do everything we 
possibly can to engage in meaningful and constructive dialogue 
with the Dalai Lama to reach a long-term solution that results 
in enduring peace. So I look forward to the panel and yield 
back.
    Mr. Yoho. Thank you, sir.
    Next, we will go to Ms. Ros-Lehtinen, chairman emeritus, 
from Florida.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Yoho, and 
thank you to Ranking Member--we have got a private joke going 
here--stop it, Ted--Sherman for this meeting.
    Tibet is an issue that is near and dear to my heart, and I 
want to thank both you and Ranking Member Sherman for allowing 
me to join your subcommittee and hear from our distinguished 
panelists. It has been a privilege to work closely on these 
issues with both Carl and Richard. I like to name drop, you 
know, first-name basis.
    I want to thank Mr. Gere for taking the time to be with us 
today and to wait so long--but we had votes--and then have to 
hear from us yet again. But you have been a staunch defender 
and advocate, a tireless worker on behalf of the Tibetan 
people.
    A little over 10 years ago, I authored a bill alongside our 
departed pal, Tom Lantos--and I want to thank him for his work 
on this--which eventually became law, that recognized His 
Holiness the Dalai Lama with our highest honor, the 
Congressional Gold Medal, showing the world that we stand with 
the people of Tibet in their struggle for freedom. But in the 
years since, Mr. Chairman, I have been increasingly worried 
that Tibet has been pushed to the periphery of U.S. foreign 
policy. Beijing's repressive policies in Tibet have only been 
getting worse with additional travel restrictions against 
Tibetans and U.S. citizens, restrictive regulations on 
religious affairs, and censorship of Buddhist literature and 
information. We are also seeing Beijing demolish Tibetan 
Buddhist sites, jailing more Tibetan prisoners of conscience, 
and declaring that it, Beijing, has the decisionmaking power 
over the reincarnation of the Dalai Lama.
    Sadly, instead of supporting the people of Tibet and 
standing up to Beijing's policy, U.S. administration after U.S. 
administration has held back being fearful of upsetting the 
Chinese, and this is simply unacceptable. We must stand strong 
in our commitment to the people of Tibet, and that is why, last 
month, I was proud to introduce House Concurrent Resolution 89, 
alongside Ranking Member Engel, Chairman Yoho, Ranking Member 
Sherman, and Steve Chabot, and our bill outlines a path forward 
on U.S. policy on Tibet. And I urge my colleagues to cosponsor 
this important bipartisan resolution. It details certain 
priorities, including pressing Beijing to enter into a dialogue 
with the Dalai Lama that leads to a negotiated agreement on 
Tibet, and it publicly calls for the immediate release of 
political and religious prisoners. It calls for the appointment 
of a Special Coordinator for Tibetan Issues and at the State 
Department who would report directly to the Secretary of State. 
It calls for the revocation of appropriate privileges of any 
Chinese officials responsible for impeding access of U.S. 
citizens to Tibet, an issue that I am also proud to be working 
on as a cosponsor of my good friend Jim McGovern and his bill, 
the Reciprocal Access to Tibet Act, H.R. 1872. I urge my 
colleagues to cosponsor this important legislation as well. All 
of the Chinese regime's actions that I mentioned are not only 
immoral and unjust, but they violate the Tibetan people's most 
basic human rights, and they are threatening the stability of a 
crucial area for U.S. interest. Our own U.S. national security 
interests dictate that we oppose China's increasingly 
repressive policies on Tibet and that we work toward a 
negotiated solution and start making the treatment of the 
people of Tibet an important factor in our relations with 
Beijing. So thank you, Chairman Yoho. Thank you, Ranking Member 
Sherman, for taking the time. And I look forward to hearing 
from our distinguished panelists.
    I yield back. Thank you sir.
    Mr. Yoho. Thank you for your comments.
    And I would like to ask if there is no objection to 
allowing Mr. McGovern, the author of the Reciprocal Access to 
Tibet Act of 2017, to say a few words.
    Hearing no objection, Mr. McGovern.
    Mr. McGovern. Whew, thank you.
    I want to thank Chairman Yoho and Ranking Member Sherman 
for convening this hearing, and I want to thank my colleagues 
up here. And I hope the Chinese Government is listening because 
in a Congress where there is lots that divides Democrats and 
Republicans, this is an issue that brings us together. We are 
all speaking with one voice here today. We are all saying that 
Tibet is important, that human rights in Tibet is important, 
and that we believe our Government must do more. And I think 
this is a particularly important time because the human rights 
situation in Tibet is dire and deteriorating. And I gotta be 
honest with you: I am frustrated that our Government hasn't 
done more over the years. I say that not only in reference to 
the Trump administration; I, quite frankly, was frustrated 
while President Obama was in office that, while some symbolic 
steps were taken, in the end, Tibet's status remained the same. 
And so, whether it was Democratic or Republican 
administrations, we haven't done nearly enough to raise this 
issue.
    There was no progress--there has been no progress in 
restarting the Tibet and Chinese dialogue or advancing Tibetan 
autonomy. Control over the practice of Buddhism tightened. And 
the use of the Tibetan language has become more restrictive. 
And too many people found the situation so unbearable that they 
took to the unimaginable decision to self-immolate. As things 
have worsened in recent years, there have been no consequences 
for Chinese authorities, none.
    All of us love and respect His Holiness the Dalai Lama, and 
that is as it should be. Our relationship with him and our 
solidarity helped keep the Tibet issue in the public eye. But 
that is not enough. The Dalai Lama is 82 years old, and he is 
getting tired. For that reason he recently decided to turn over 
his international engagements to emissaries. I believe the 
Dalai Lama could play a very constructive role in negotiating a 
better future for the Tibetan people, but China clearly doesn't 
see it that way. China is waiting him out and counting on his 
eventual departure to remove Tibet from the international 
agenda.
    So we need to move now, and we need some leverage. And that 
is why, earlier this year, along with a bipartisan group of 
members, I introduced H.R. 1872, the Reciprocal Access to Tibet 
Act. As has been mentioned, this bill imposes consequences for 
just one aspect of China's bad behavior: Its restrictions on 
travel to areas in China where ethnic Tibetans live. Chinese 
diplomats have unrestrictive access to anywhere in the United 
States. U.S. citizens and U.S. journalists and U.S. diplomats 
ought to have the same. And the current status of things, quite 
frankly, is unacceptable. If China wants its citizens and 
officials to travel freely in the United States, Americans must 
be able to travel freely in China, including Tibet. But 
allowing travel to Tibet is only one step China needs to take, 
and there are others. Most, especially China, should permit His 
Holiness the Dalai Lama to return to Tibet for a visit if he so 
desires. He has that right, and he must have that opportunity 
before it is too late.
    On our side, we need to insist that the State Department 
name a Special Coordinator for Tibetan Issues. This appointment 
is a statutory requirement. To make progress on Tibet issues, 
we need someone in charge. We in Congress should also insist 
that the administration make use of the global Magnitsky Act to 
sanction Chinese officials responsible for torture and 
extrajudicial killings of Tibetans, like the revered monk 
Tenzin Delek Rinpoche. It has been nearly 2\1/2\ years since he 
died in a Chinese prison, and still there is no accountability 
for his death. I say to all of you as my colleagues: Time may 
be running out for the Tibetan people. All those who say they 
believe in the rights of the Tibetans must move beyond words to 
concrete actions. We have been talking the talk for years. We 
now need to walk the walk. If human rights on Tibet really 
matters, then our Government, the United States Government, has 
to stop being such a cheap date when it comes to this issue. We 
need a bolder policy. We need to be thinking out of the box, 
and we need to indicate to the Chinese Government that we are 
serious on this matter. Let us take advantage of our power, let 
us create some leverage. The first step could be a markup and 
the passage of H.R. 1872 and the other legislation that has 
been mentioned here.
    But I will close with this: I have always believed that if 
the United States stands for anything, we need to stand out 
loud and foursquare for human rights, and what is happening to 
the Tibetan people and the Tibetan culture is unconscionable. 
And it is no longer enough for us to tell people we revere the 
Dalai Lama or meet him when he comes here, although that is 
important. Now is the time to take the next steps. I want a 
good relationship with China. I admire the Chinese people, but 
this is a serious human rights matter, and it demands more 
serious attention by our Government.
    And, again, I thank the chairman and the ranking member for 
convening this hearing. I yield back.
    Mr. Yoho. Thank you for your comments, and we will get on 
with the--go ahead. We will go on to the testimony from our 
esteemed panel. And I feel blessed that we have you three 
experts here today. Not only are you experts in the area, your 
passion and your persistence is so important in getting this 
message out to bring the spotlight on the world's stage.
    We have with us Mr. Richard Gere--I think everybody knows 
or has seen his movies--chair of the Board of Directors of the 
International Campaign for Tibet; Mr. Tenzin Tethong, director 
of Tibetan Service for Radio Free Asia; and Mr. Carl Gershman, 
president of the National Endowment for Democracy.
    And you guys probably have done this more than I have. You 
know there will be a 5-minute timer in front of you. Press your 
button that says ``talk'' so the microphone is on, and then you 
will see the lights go from green, yellow, and red, and we will 
let you talk.
    And, Mr. Gere, if you would start off. Thank you.

STATEMENT OF MR. RICHARD GERE, CHAIR OF THE BOARD OF DIRECTORS, 
                INTERNATIONAL CAMPAIGN FOR TIBET

    Mr. Gere. Well, first of all, I am going to be incredibly 
blunt with you: I am totally knocked out by the words that I am 
hearing from all of you. And I have seen this evolve over 
decades now, how people talk about Tibet and from what part of 
their being they speak. And this is coming from a deep place in 
all of you. I think everyone in this room is feeling this from 
a deep place, how important this is, maybe not strategically 
but humanly, and what it means to us as Americans to be coming 
from this place of universal responsibility protecting the 
welfare and human rights of everyone on this planet.
    But I really want to thank you, Chairman Yoho, for 
presiding over this.
    Mr. Sherman, thank you very much.
    And, of course, Ileana, we are on a first-name basis.
    And, Eddie, thank you very much for pushing so hard.
    Chairman, as always, thank you for the depth of perception 
and the openness of your emotions in dealing with a subject as 
difficult as this.
    I also see, over to my right, there is a painting up here 
of Tom Lantos, and as you know, he was chairman of this 
committee. He was also the convener of the Congressional Human 
Rights Caucus. He was a great friend of mine, great friend of 
the Tibetan people, and a close and dear friend of His Holiness 
the Dalai Lama. I think he would be so happy right now as he is 
looking down from there to hear these fiery, compassionate, and 
deeply committed words from all of you, and I thank you for 
that.
    Fifteen years ago, something kind of miraculous happened. 
At the end of 2002, President Bush signed into law the Tibetan 
Policy Act after it received bipartisan support in both the 
House and the Senate. This legislation dictates how U.S. policy 
toward Tibet should be conducted by the administration. 
Congress and this subcommittee have a very important role to 
play in monitoring that policy and how it is to be conducted. 
Ten years ago, on October 17th, 2007, the U.S. Congress 
bestowed upon His Holiness our highest civilian honor here in 
America with the awarding of the Congressional Gold Medal, and 
clearly, there are people in this room who worked really hard 
on that to make that happen. I want to thank all of you again 
for having done that.
    There were so many wonderful people there that day, the 
entire government, and it was bipartisan at the highest levels 
of President Bush, and First Lady Laura Bush was there. Mr. 
Boehner was there. Nancy Pelosi, Mitch McConnell. And I 
actually remember Mitch McConnell giving the most powerful 
speech that evening on human rights and on behalf of His 
Holiness the Dalai Lama. It makes me kind of wish that people 
would be talking today the way they did then on how important 
human rights are.
    As Americans, as people who care, it is kind of the 
centerpiece of the American soul, is that we do care, and we 
have to continually talk about these things and express them.
    Tibet has been an issue that has earned extraordinary 
support in the U.S. Congress over the decades, including 
humanitarian aid for the Tibetan refugee communities in India 
and Nepal. The congressional delegation led by Leader Pelosi 
and Congressman Sensenbrenner, which visited India and Nepal 
last May, confirmed once again the commitment of this 
institution to Tibet and saw firsthand the positive impact that 
development aid has had in these communities, and it is pretty 
extraordinary, something to be very proud of. Since the 1990s, 
subsequent U.S. administrations and Presidents have supported 
the call of His Holiness the Dalai Lama, not for independence 
but for genuine autonomy for the Tibetan people as guaranteed 
in the Chinese Constitution, and for China to respect the 
distinct identity of the Tibetan people, including their 
language, their religion, and their culture, and to stop the 
ongoing persecution of Tibetans.
    The respect for the identity of a people and their religion 
is something that the American people understand very well and 
deeply care about. Before being politicians or actors, we are 
human beings who understand that oppression cannot be 
tolerated. We understand that all human beings have the right 
to the pursuit of happiness and to avoid suffering. This is 
what His Holiness the Dalai Lama continuously reminds us of: To 
look at what unites us as human beings, as compassionate people 
sharing our time and space on this small and very beautiful 
planet drifting through an endless universe. We are in this 
together, all of us.
    This is consistent in this message that His Holiness and 
our Tibetan brothers and sisters send to the Chinese Government 
and to all of us. Despite the historical, cultural, linguistic, 
and ethnic differences, and despite decades of oppression, the 
proposal for genuine autonomy presented by the Tibetans shows a 
path toward peaceful coexistence and away from endless 
conflict. Despite these efforts, the Chinese Government ceased 
formal talks with the representatives of His Holiness the Dalai 
Lama in 2010, and Tibetans inside Tibet continued to live in 
very, very challenging times indeed.
    Just last week, November 26th, a 63-year-old Tibetan monk 
named Tenga self-immolated in Tibet. He was the 151st Tibetan 
to self-immolate in the land of snow since the first one in 
2009. We actually have a picture of him right now.
    Do you have that?
    Ladies and gentlemen, this is Tenga, who just sacrificed 
his life for the Tibetan people, his brothers and sisters. But 
not just that, I think it was a message to us and perhaps our 
failure to engage an issue which is literally life and death 
for the Tibetan people and their culture. I don't know if you 
can put this on the record. It is up there. Okay. Good. Thank 
you.
    According to our sources, the body of Tenga has not been 
returned to his family. This seems to be what the Chinese 
authorities are doing now. They either allow prisoners to die, 
as Tenzin Delek Rinpoche, and then some are, in fact, tortured 
to death, and the bodies are not returned to their families. 
There is a collective punishment to the villages, to the 
families. This is clearly against international law, but it is 
carried out every day against Tibetans by the Chinese 
Government.
    As we meet today, hundreds of Tibetans are imprisoned for 
expressing their opinions or beliefs. Tibetan monasteries 
across Tibet are under strict police surveillance with police 
stations actually built inside the monasteries or sometimes 
just besides them. Religious regulations give the Chinese 
Communist Party, not Tibetan Buddhists, the authority to 
identify and appoint reincarnated Tibetan lamas, including the 
Dalai Lama. Tibetan nomads are being removed from their land 
and relocated in socialist villages. A number of urban centers 
in Tibet now have a majority of ethnic Han Chinese settlers, 
and the use of a Tibetan language is intensely discouraged. 
These are the policies that threaten the very survival of 
Tibetan identity.
    Now, just a few weeks ago, as you know, the 19th Congress 
of the Communist Party reaffirmed and expanded the power and 
role of President Xi Jinping. As China's profile obviously 
grows on the world's stage, its accountability as to 
international law and norms must also grow. The United States 
leadership in this area has always been essential to that 
accountability, and I call on this committee and our Government 
to make sure that accountability is robust.
    During President Trump's recent visit to China, the White 
House stated that the issue of human rights was raised with 
Chinese authorities. We don't have the details on that, 
unfortunately, what was said. While this is good, President 
Trump and Secretary Tillerson did not publicly highlight the 
lack of respect of human rights in Tibet or the need for China 
to restart the dialogue process with the Dalai Lama. Now, this 
is out of line completely with the provisions of the Tibetan 
Policy Act.
    It is now critical that the U.S. Congress takes concrete 
initiatives to make sure that the Tibet Policy Act, which is 
law, is fully implemented and that China is consistently 
reminded that the U.S. stands with the Tibetan people in full 
support of their peaceful aspirations.
    Earlier this year, Congressman McGovern and Senator Rubio 
introduced legislation in the House and the Senate to put 
pressure on China to allow U.S. diplomats, journalists, and 
NGOs to have free access to Tibet based on the principle of 
reciprocity. U.S. citizens face severe restrictions in their 
access to Tibet, while Chinese citizens, diplomats, NGOs, 
journalists, and media have free access to the United States. 
By the way, I have not been allowed in mainland China since 
1993.
    Reciprocity is an important principle in diplomatic 
relations that should be implemented, not only when it comes to 
trade but also to freedom of movement and freedom of 
information. To give you a few examples of the lack of 
reciprocity with China, the State Department reports that the 
officials of the Government of the United States submitted 39 
requests for diplomatic access to the Tibetan Autonomous 
Region, TAR, between May 2011 and July 2015. Only 4 were 
granted of the 39. And when such requests are granted, 
diplomatic personnel are closely supervised and given few 
opportunities to meet with local residents not approved by the 
authorities. And those that were on the codel to Tibet know how 
monitored they were in this process. It was extremely 
difficult, impossible, to meet anyone without supervision.
    In September 2016, an article in the Washington Post 
reported that<greek-l>, quote deg.: ``The Tibetan Autonomous 
Region is harder to visit as a journalist than North Korea.''
    Furthermore, foreign correspondents----
    Mr. Yoho. Mr. Gere, sorry. Can I get you to hold your 
recommendations so we can get to the other witnesses? And I 
hate to ask you that because you waited for us for 45 minutes.
    Mr. Gere. Absolutely. No, please.
    Mr. Yoho. But I will give you time during my questioning to 
finish that up.
    Mr. Gere. No, that is fine. That is perfectly fine. This is 
your show.
    [The prepared statement of Mr. Gere follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Yoho. And the show must go on.
    Thank you for all that, though, because I want to hear the 
rest of that, and you have got some great recommendations I 
think everybody should hear.
    Mr. Tethong.

   STATEMENT OF MR. TENZIN TETHONG, DIRECTOR OF THE TIBETAN 
                    SERVICE, RADIO FREE ASIA

    Mr. Tethong. First of all, I would like to begin by 
thanking Chairman Yoho and Ranking Member Sherman for this 
opportunity to testify at this hearing. In consideration of 
time limits, I will go over only some of the main points in my 
written statement, which has already been submitted.
    As director or of the Tibetan Service at Radio Free Asia, I 
would like to focus my comments on the challenges we face as a 
news organization of getting news from the region and 
fulfilling our mandated mission of bringing this news to the 
Tibetan people. It is extremely difficult for any of our 
journalists to have normal access to Tibet. Nevertheless, many 
of them maintain various levels of contact with networks of 
trusted sources inside Tibet who can provide tips, leads, 
images, video, and confirmation of events.
    During President Xi Jinping's tenure, China has grown more 
strident in enforcing a comprehensive censorship and propaganda 
operation in Tibet and increased attacks on Tibetan culture by 
demolishing holy sites and demonizing the spiritual leader of 
the Tibetan people, His Holiness the Dalai Lama.
    Last week, as Richard has already mentioned, RFA reported 
the 151st self-immolation protest since 2009. It was carried 
out by a 63-year-old monk from Kardze who called out for 
freedom in Tibet before he set himself aflame. These self-
immolation protests have explicitly called for greater freedom 
for the Tibetan people and the swift return of His Holiness the 
Dalai Lama to Tibet.
    But each time such a protest takes place, authorities 
intensify efforts to clamp down on the sharing of information, 
and entire regions and prefectures can be plunged into 
communication darkness in the wake of such protests. Weibo and 
WeChat, the dominant social media platforms in China, are 
heavily monitored and restricted. This was especially evident 
in the lead-up to the recent 19th Party Congress. Authorities 
ramped up efforts to police WeChat and warned Tibetan monastery 
heads about the severe consequences the entire establishments 
would face if monks and nuns shared or discussed content deemed 
sensitive.
    Chinese authorities also bring the heavy hand of law 
enforcement down on any Tibetan caught sharing information of 
events with foreign outlets. Authorities harass families of 
reporters and stringers working for Radio Free Asia, and they 
have even targeted Tibetans in the United States. A Tibetan 
American in New York, a regular listener to RFA who sends our 
programs out over social media, was somehow identified by 
Chinese security authorities. The authorities tracked down his 
family in Tibet, interrogating and threatening them with 
retribution.
    While the Chinese journalists travel and work freely in the 
United States, no RFA Tibetan reporter can obtain a journalist 
visa to enter Tibet. Even when applying for visas to visit 
family, RFA reporters are subject to extensive questioning by 
Chinese Embassy officials while parallel inquiries are made of 
family members back home by local authorities.
    Such a process can go on indefinitely and more often than 
not result in a denial. Two months ago, one of our reporters 
was granted permission to visit his ailing brother after weeks 
of pleading for a visa and was finally able to visit and spend 
the last few days with his brother before he passed away.
    Another reporter who had not met his family members for 10 
years had to rendezvous in Hong Kong because he was repeatedly 
denied a visa to visit home. Yet another who wanted to visit 
relatives in China on a 72-hour nonvisa requirement transit 
privilege accorded to all U.S. passport holders was denied 
entry because he was identified as a Tibetan.
    Beijing has recently redirected increased resources to 
build up its Tibetan language media operations on radio, 
online, and TV, which offers audiences almost solely 
entertainment programming punctuated by propaganda-driven news 
serving the CCP's narrative. All the while, they continue to 
try and deny access to RFA's programming on radio and online by 
jamming shortwave signals and blocking access to the Tibetan 
Web site.
    The erosion of religious and--pardon me, I have just one 
more paragraph--the erosion of religious rights and freedoms in 
Tibet may be best illustrated by the demolition and crackdown 
on Larung Gar this year. Larung Gar is one of the most 
prominent and vibrant Tibetan Buddhist learning centers with 
monks and nuns from all over the country. We were able to cover 
these developments because many of his residents sent us 
photos, reports, and videos. While, similarly, last year, local 
activists in eastern Tibet informed us of mining activities in 
the region that was causing extensive environmental damage. 
When the mining was finally halted, the local Tibetans informed 
us that it was outside attention, especially the steady 
reporting of RFA which forced Chinese authorities to put an end 
to the mining.
    Trust is a two-way street for RFA reporter sources and 
audiences. We recently learned of a monk was among those 
expelled from Larung Gar. He told us that he was devastated 
when he was expelled, but he had no regrets in reaching out to 
us. Such feedback reaffirms the importance of our mission. As 
one Tibetan listener inside China recently said: ``RFA 
broadcasts clearly about the conditions inside Tibet and where 
His Holiness the Dalai Lama is going to visit and what he is 
doing. Because they broadcast such true information, I strongly 
trust it.'' RFA strives to keep earning that trust and keep 
connecting the Tibetan people with the truth. Thank you.
    [The prepared statement of Mr. Tethong follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Yoho. Mr. Tethong, thank you, and I appreciate you 
talking about the RFA, how important that is.
    Mr. Gershman.

 STATEMENT OF MR. CARL GERSHMAN, PRESIDENT, NATIONAL ENDOWMENT 
                         FOR DEMOCRACY

    Mr. Gershman. Thank you, Chairman Yoho and Ranking Member 
Sherman, for the invitation to testify before the subcommittee 
on this important matter. It is great to be here today amongst 
so many friends.
    I want to begin by noting an article that appeared last 
week in the Washington Post, by David Ignatius, that was 
provocatively entitled ``China's Plan to Rule the World.'' The 
article referenced several reports commissioned by the Pentagon 
and the Air Force, one of which describes China's economic and 
military buildup as perhaps the most ambitious grand strategy 
undertaken by a single nation in modern times. The article 
describes several dimensions of this strategy, in particular 
the $1 trillion One Belt, One Road trade and infrastructure 
plan that dwarfs by some seven times the Marshall Plan in post-
war Europe and that has the strategic intent of constructing a 
Chinese-led order in Eurasia.
    The United States and many other countries have tended to 
take a benign view of China's policies because Xi Jinping tries 
to present himself to the world as a global citizen, and he 
does not indulge in the brazen behavior of Russia's Vladimir 
Putin.
    In addition, the illusion still persists that the 
integration of China into the global economy and political 
order will moderate its behavior and encourage its internal 
liberalization. In fact, the threat posed by China to the world 
order has increased with its growing economic power, and 
repression is worse today than at any time since the death of 
Mao Zedong four decades ago.
    Nowhere is this repression more cruel than in Tibet, where 
the Chinese Government is pursuing a policy that the Dalai Lama 
has called cultural genocide. In addition to the systematic 
effort to destroy the Tibetan religion, language, culture, and 
distinct national identity, China has flooded Tibet with Han 
Chinese settlers, placed monasteries under direct government 
control, arrested and tortured writers, and forcibly resettled 
more than 2 million nomads in urban areas, destroying their 
traditional way of life and disrupting the fragile ecosystem of 
the Tibetan Plateau.
    The death and likely murder in prison in July 2015 of 
Tenzin Delek Rinpoche, the beloved community leader and 
spiritual teacher, is emblematic of this oppression, which has 
led to the self-immolation and desperate protest of more than 
150 Tibetans. The continued Tibetan resistance to Chinese 
oppression exposes the falseness of China's claim to the 
legitimacy of its rule in Tibet, which rests on the assertion 
stated in a white paper issued by the Chinese Government in 
2015 that, ``Tibet has been an integral part of China since 
antiquity.'' China insists that it won't resume negotiations 
over Tibet's status that it broke off in 2010 until the Dalai 
Lama agrees to this assertion, something he cannot do since it 
is contradicted by the historical literature and overlooks the 
fact that Communist China invaded Tibet and illegally annexed 
it in 1959.
    I believe that it is not sufficient just to protest against 
the massive violations of human rights that are taking place in 
Tibet. It is also necessary to state clearly that Tibet was not 
a part of China before the invasion occurred, that China 
violated international law by invading Tibet, and that it 
continues to violate international law by denying the Tibetan 
people their right to self-determination.
    Most of all, I think we need to take a realistic look at 
China's global strategy. In doing so, we need to heed the words 
of Liu Xiaobo, the Chinese dissident who was not allowed to 
attend the ceremony in Oslo when he was awarded the Nobel Peace 
Prize in 2010 and who died in prison last July. More than a 
decade ago, Liu warned that if China continued to rise as a 
dictatorship, the result will not only be another catastrophe 
for the Chinese people but likely also a disaster for the 
spread of liberal democracy in the world. We need to remember 
Liu Xiaobo, study his writings about the relationship between 
international security and political freedom, and shape a 
policy toward China that recognizes the dangers we face and is 
consistent with the values we cherish.
    We also need to remember that the struggle for Tibetan 
rights cannot be separated from the fight for human rights and 
freedom in China.
    In 2008, following the outbreak of violence in Lhasa, Liu 
and 28 other Chinese dissidents appealed to Chinese leaders to 
engage in direct dialogue with the Dalai Lama and expressed 
their hope that the Chinese and Tibetan people will do away 
with the misunderstandings between them, develop their 
interactions with each other, and achieve unity. That is the 
path to a more democratic China and to a more peaceful world. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gershman follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Yoho. Thank you. I appreciate it.
    I have just been informed that they are going to call votes 
between 4 and 4:15, and so if we can adhere to the 5 minutes. 
What I want to read out here is Freedom House's latest freedom 
index ranked Tibet second least free place on the planet, 
slightly better than Syria but less free than North Korea. I 
don't know how that can happen. Yet the situation in Syria and 
North Korea get far more media coverage, thanks to the crisis 
and the threats of terrorism and nuclear war. Tibetan leaders 
lament that their nonviolent movement is ignored while violent 
movements and violent regimes succeed. Tibetans are 
nationalists, but they are not seeking ethnic purity in Tibet 
like the militant Buddhist nationalists in Burma, nor are the 
Tibetans seeking their own state like the Kurds in Iraq. 
Instead, the Tibetan leadership is pursuing a middle way 
approach that seeks limited autonomy within China. They just 
want to be left alone.
    And as I said, Mr. Gere, I am going to stop there and let 
you finish up your talk and your recommendations.
    Mr. Gere. Yes. We have recommendations. Sorry. Look, we 
think that the Policy Act--the passing of bipartisan bill H.R. 
1872, the Reciprocal Access to Tibet Act of 2017, is important. 
It is a win. It is international norms, the rule of law, which 
is something that is very hard to find inside of Tibet and also 
China. But there are norms.
    If they want to be the super power that they claim to be 
and the world leader they claim to be, these norms are to be 
followed, and that is part of what the Tibet Policy Act is 
aiming towards, but this is very specific in terms of that 
reciprocal access to Tibet.
    The Senate version of that, H. Con. Resolution 89, the 
same. These things need to be passed, and they can be passed, 
and I think it is important.
    I think another important part of the Tibet Policy Act was 
to encourage the negotiations between the Dalai Lama's 
representatives and the Chinese Government. We have not done 
that recently, and this needs to be the forefront of what our 
policy is with China. It is not unreasonable, and it is 
actually good for China. To resolve these Tibetan issues is 
good for everyone, especially the Chinese.
    It is funny, every time there is a new President of the 
People's Republic of China, I somehow get a message to them and 
say: The first thing that you can do is become Time's Man of 
the Year by coming to a conclusion with this Tibetan problem. A 
picture of Xi Jinping with the Dalai Lama shaking hands and 
coming to a conclusion costs the Chinese nothing. The Tibetan 
point of view is one of nonviolence and inclusion.
    I think another point, and I have been making this for 
years, is that the administration can't do this alone. The U.S. 
can't do it alone. We have to work with our European 
counterparts, and not just in Europe but in other countries as 
well, in a multilateral approach. And I think, unfortunately, 
we don't have a State Department that is fully manned at this 
point, but this is the kind of thing the State Department 
should be spending time and energy with, counterparts in our 
allied countries around the world.
    The Chinese are very good at making separate deals with 
every country. If we were a unified world in confronting these 
problems in China, we really could get somewhere.
    The U.S. Special Coordinator for Tibetan Issues is 
extremely important. We have yet to have one. This has never 
happened. Greg Craig was the very first one--when was it, what 
was the year, 1991? Nineteen ninety-seven was the first time, 
and we have had--we have been fully employed in that job since 
then. We have gone a year now without having a Special 
Coordinator for Tibetan Issues, which is part of the Tibet 
Policy Act. I think it is reasonable to expect Congress to 
demand that that position be filled with a quality high-level 
person, as it has always been.
    I think the access issue is very important. I think His 
Holiness meeting with either the President of the United States 
or Secretary Rex Tillerson I think is also important. I think a 
man-to-man meeting and understanding of the issues, of 
understanding where the Tibetan people are coming from, not how 
they are characterized by the Communist Party, but to hear it 
from the Tibetans themselves, no better representative than His 
Holiness the Dalai Lama.
    I think we have to continue our humanitarian assistance to 
the Tibetan communities. It is not that much money, frankly. 
And the millions of dollars is doing extraordinary things. We 
have to continue that. We can't allow that to be taken away.
    Another thing we have talked about for some time is 
establishing a consulate in Lhasa. Completely doable, and, 
again, part of the modern world. If people are traveling--the 
Chinese are traveling here; Americans want to and should be 
traveling to Tibet--and we should have a consulate. And I 
think, beyond that, we should say to the Chinese: If you want a 
consulate in Atlanta, I think you can give us one in Lhasa.
    Mr. Yoho. That is right. I am going to have to cut you off 
and go on to Mr. Sherman, but what I would like you to do is go 
ahead and submit those so we can put them in the record and we 
can review those because I think they are very valid points.
    Mr. Gere. Thank you, Mr. Chairman.
    Mr. Yoho. I really appreciate it.
    We will go to the ranking member, Mr. Brad Sherman, of 
California.
    Mr. Sherman. We have got to get the truth out. I want to 
talk a little bit about the Voice of America in getting 
truthful information to the people of Tibet. We also need to 
get the truth out to the American people, and as I commented in 
my opening statement, China has a system of restricting the 
number of movies that it will accept from the United States so 
they can--they have got each studio in their quotas. They can 
then intimidate American studios not to cover Tibet. They can 
even intimidate American studios not to feature actors that are 
concerned with Tibet.
    Mr. Gere, I would like to see you in more movies. What is 
China doing and how do they use this quota system not only to 
affect you but to terrorize everyone else in the entertainment 
business in the United States into not being the second Richard 
Gere and the third Richard Gere on this issue?
    Mr. Gere. Well, I think it is a little more complicated 
than you are presenting it. There definitely is a quota, and 
the quota is controlled by the Communist Party for sure, but it 
is in partnership with the exhibitors in China.
    Now, if there is a quota, obviously, the exhibitors are 
going to want movies that are going to make the most money. So 
they end up being, you know, CGI blockbuster movies.
    Mr. Sherman. If there was a movie that everyone in the 
world was talking about and it was made by a studio that they 
had on their blacklist, they might still let it in?
    Mr. Gere. No, highly unlikely. That is not true----
    Mr. Sherman. Even then, they might not let it in?
    Mr. Gere.--if it is blacklisted.
    But the power is this, is that they can say the villain is 
no longer going to be Chinese, and Richard Gere is not going to 
play the hero. They can say that.
    Mr. Sherman. So you are saying the Chinese would be fine as 
long as you played the villain?
    Mr. Gere. They might. They might.
    Mr. Sherman. Right.
    Mr. Gere. They might. But clearly this is control of the--
--
    Mr. Sherman. Not only their ability to control one movie, 
but they can turn to a studio that has 10 blockbusters and say: 
Well, maybe we will let one of them in, or maybe we will let 
eight of them in. There are some other good movies for some 
other studios just down the street. Maybe we will let one of 
them in, and maybe we will let seven in. Do we like your 
studio? Will we give one studio seven movies because they don't 
have Richard Gere in any of their films?
    Mr. Gere. Look, I am sure that is part of it, but I think, 
again, it is more complex than that. I think the more sinister 
part of this--and it is not only in movies; it is in everything 
with the Chinese--people self-edit before the Chinese even have 
to say anything; they are so terrified of the Chinese.
    Mr. Sherman. Right.
    Mr. Gere. And a lot of this in terms of the movies is the 
Chinese don't have to say, ``Don't have Richard Gere,'' 
whoever; the studios themselves will self-edit that way.
    Now, personally, to me, it doesn't matter. I don't make 
those kinds of movies anyhow. I make very small, dramatic 
films. So it has had no impact on my career, zero. But it is a 
complicated situation. The root of it is the fear of the 
Communist Party ruling out your product getting into China.
    Mr. Sherman. But there might be a Hollywood actor, big 
name, that does make a career in those big budget movies, and 
if that person was sitting next to you today, I am not sure 
that it would be lost on the studio that they have to maintain 
a good relationship with China.
    I want to move on to the issue of the Voice of America and 
Radio Free Asia. The Chinese are jamming many of these signals. 
That proves to me that they are of some importance. How 
important are they to the Tibetan people, and what additional 
steps can we take, Mr. Tethong?
    Mr. Tethong. The Voice of America and Radio Free Asia 
broadcasts are a lifeline to the Tibetan people. If it were not 
for these broadcasts, the Tibetan people would be completely 
starved of any real and correct information of what is 
happening in their own backyard, as well as in the rest of the 
world.
    We have been relatively successful in getting information 
out of Tibet, as I stated earlier, but there is a lot more we 
can do. We need to find more people who are able to communicate 
inside Tibet and to bring the information out. So that 
requires, I think, more resources, to say the least.
    Mr. Sherman. I want to get one more question in. China 
seems to be demolishing religious sites and restricting 
religious practice in Tibet. What can--I will ask both Mr. Gere 
and Mr. Gershman--what can the United States do to push China 
to promote the rebuilding of destroyed Tibetan Buddhist 
monasteries and holy sites?
    Mr. Gershman. Thank you, Mr. Chairman. As I suggested in my 
remarks, I think it is important to raise the ante in the way 
we deal with China on this issue. It is important that we raise 
these issues, that we protest these issues, but I think we also 
need more leverage in the relationship.
    And I believe we will get more leverage in the relationship 
if we raise what is the fundamental issue, which is that 
China's rule, its occupation, its control of Tibet is 
illegitimate.
    Tibet was an independent entity, if not an independent 
country, when China invaded in 1949 and 1950 and when it 
annexed Tibet in 1959. This is the issue China itself has 
raised in saying that it won't talk to the Dalai Lama until he 
says China was part of--Tibet was part of China since 
antiquity.
    Mr. Sherman. Which is just false.
    Mr. Gershman. Of course. But I think it is very, very 
important. And it can start with the Congress, if it is not 
going to start with the administration, to raise this point 
repeatedly to put this issue on the agenda. And once you have 
done that, in my view, you will get China's attention on the 
kind of issues you are raising.
    I just want to say one other point about information, which 
you have raised so well. The National Endowment for Democracy 
just today, a few hours ago, issued a report on what was called 
sharp power, which is China's information plan, information 
system, to control, distort, manipulate, the information that 
reaches the publics in the West and Russia as well. But it is 
part of the rising authoritarian influence in the world.
    It also is very important in our universities with these 
Confucius Institutes. There are over 100 in our society. They 
control academic freedom. They control how China is taught in 
the universities. And they also exist in countries all over the 
world--because the report focuses just on four countries--it 
could focus on many more--Poland, Slovakia, Argentina, and 
Peru. But it is all over the world today where they are 
expanding their influence in the field of information. We don't 
call it soft power. We call it sharp power because the goal is 
to perforate, to penetrate the way a syringe does, democratic 
societies.
    Mr. Yoho. Thank you. I appreciate you. And you have brought 
that out very well. And we are going to come back to that.
    And we will next go to Mr. Scott Perry.
    Mr. Perry. Thanks, Mr. Chairman.
    Thanks, gentlemen, for your attendance today. I will tell 
you that I remain very frustrated with the pace of things in 
Tibet. And while I listened to the dialogue here today, Mr. 
Gere, I couldn't agree with you more. The consulate in Lhasa, 
it should be like the minimum standard, right? It shouldn't 
even be a question for us. The Special Coordinator for Tibetan 
Issues, I agree completely.
    But I got to tell you: Communists are Communists. And they 
have been Communists as long as--that is what they are, and 
they do what they do. Tibet is a horrifically strangled area of 
the world, and it has been ever since I have been. In my 
memory, that is all Tibet has been, which is an example of the 
oppression of communism. And as we sit here today, their 
culture is slowly but steadily being strangled away from them 
as they participate in it literally, right? When you talk about 
the movies, that they self-correct, that is their own 
participation and their own demise. And so, while we talk about 
the things that we are today, it seems to me that there needs 
to be a new view of this, new actions taken. The actions we 
have taken, asking for a special coordinator and asking for 
more dialogue, that is not getting the job done, is the point. 
It is not doing--the Chinese are playing long ball. They look 
at things in terms of hundreds of years. We can't get past 
dinner tonight.
    So my question to you is: I wonder--and maybe because you 
are all obviously very involved in Tibet and what Tibet would 
do, and so maybe these questions are ill-founded for you, but I 
just wonder what your perception would be if the United 
States--what would China do if the United States recognized the 
Tibetan Government in exile? Anybody?
    Mr. Gershman. We would get their attention.
    Mr. Gere. Yeah. Yeah. Basically, that is it. You would get 
their attention.
    Look, the Chinese--and it has been funny. We have been, for 
many decades, you know, we have been talking about this and 
with really smart Representatives and Senators, people in 
government, State Department, and everyone knows how the 
Chinese function. It is nibbling. They nibble at the edges of 
the world.
    Mr. Perry. Consistently.
    Mr. Gere. Consistently. And we back off. And every time we 
back off a step, they take that step in every area, whether it 
is land, whether it is law, whether it is morals, ethics, 
whatever it may be. If we back off, they take it. And we have 
to say no. We have to recognize it for what it is, say it for 
what it is, call it for what it is, and just tell the truth 
straightforward.
    Now, obviously, it is difficult financially for us; 
economically it could be. But this is why I say we have to do 
it with the rest of the world. The EU has to be a partner in 
this with us. And we have to put the energy and time it takes 
to create that partnership. Then we have real teeth dealing 
with the Chinese.
    Mr. Perry. I would agree with you. And I think that that 
this needs to be--if we believe in freedom, and autonomous 
rule, and especially for the people of Tibet, who don't get any 
credit for trying to be----
    Mr. Gere. For nonviolence.
    Mr. Perry. For their nonviolence, right? Who would be a 
better partner with the United States of America than the 
people of Tibet and the government?
    Mr. Gere. Also for China. Who would be a partner for them 
than the real Tibetans? Not the ones they pretend to----
    Mr. Perry. Well, they have a different view of things. They 
are not interested in a good partner. They are interested in 
control of everything around them, including Tibet. But----
    Mr. Gere. Including their own people.
    Mr. Perry. Absolutely. Which they intend to make Tibet, of 
course.
    So I would imagine it could--it could just be unilateral 
action by this President. And while I imagine many people find 
fault with the President, he could tell the President of China 
that we are not going to have any more substantive discussions 
until you drop your demand that the Dalai Lama recognize that 
Tibet is a Chinese territory, right? He could start with that.
    Mr. Gere. Great. Great.
    Mr. Gershman. Absolutely.
    Mr. Perry. Unilaterally. It doesn't take an act of 
Congress. And he might actually get some good press for 5 
minutes in a day, right? He might actually get some good press 
for that. But it seems to me that this Congress--and we should 
put a package together that includes a minimum of these things 
that we support, even if it is just in a resolution, a 
consulate and these demands regarding the Chinese Government in 
regard to Tibet, and move that swiftly through the House and 
the Senate, and demand action, and demand a signature and then 
action on it.
    Mr. Gere. God bless you. That is terrific. Thank you.
    Mr. Gershman. And it was China--I just want to note. It is 
China that is raising the issue of history.
    Mr. Perry. Well, of course, it is. Like Mr. Gere said, when 
we--when good people are silent, that is when tyranny continues 
on its march. And we are busy people around the world trying to 
do good things and trying to do good things in our own country. 
But we have to recognize the small things that we can do that 
can make a huge difference. And, to me, that is a very small 
ask to say to China: You are not going to revise history. We 
won't accept it. And there are going to be consequences to your 
actions.
    Mr. Chairman, I appreciate your indulgence, and I yield.
    Mr. Yoho. No, I appreciate you bringing that up, very 
important.
    Now we will next go to Mr. Gerry Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    And thank you all for being here today.
    For the record, working for the Tom Lantos Commission 
Defending Freedoms Project, I sort of have adopted the case of 
Lobsang Tsering, who is now serving 10 years in Chinese prison 
under the trumped-up charge of inciting self-immolation. And 
there is some reason to believe he may have been--you know, his 
testimony may have been coerced. But what this is really all 
about is the expression of dissent. And certainly I call upon 
the Chinese Government to release Lobsang Tsering and everyone 
else who is a prisoner of conscience with respect to the 
subject, Tibet.
    I would also say that, probably unlike most of my 
colleagues here, I went to Tibet in 1986. I led the first joint 
Senate and House staffdel to Tibet. We were the first allowed 
in, that I know of, by the Chinese Government. And it was a 
remarkable experience because what we saw was the evidence--
this was 31 years ago now--of the Chinese plan to repopulate 
the Tibetan homeland with the Han, non-Tibetans. And there are 
a lot of Chinese. So not that hard to do if you can get Chinese 
willing to live there. We saw the destruction, both from the 
cultural revolution ravages and current suppression of 
monasteries, of places--sacred shrines and so forth, really 
important to Tibetan Buddhism.
    We saw, certainly, and heard some low-key testimony of 
people who had themselves been brutalized, incarcerated, and 
persecuted. We saw the propaganda efforts of the Chinese 
Government in terms of the narrative about what Tibet was and 
had always been. This is 31 years ago. In Beijing, they 
insisted we meet with the Panchen Lama--that particular Panchen 
Lama is now dead. And I felt like I was meeting Quisling, you 
know, the Norwegian leader who basically did the bidding of the 
Nazi occupiers in Norway during World War II. I thought, I 
can't believe I am hearing this alternative view of the 
universe and Tibetan culture and religion from somebody with 
your title and your prestige. And I think--frankly, I don't 
think Tibetans listened to him. But it was a remarkable thing, 
nonetheless, in terms of how the Chinese staged this. So 
everything I am hearing 31 years later is still true.
    Mr. Gere, you talked about nibbling away. But they are also 
systematic and very patient. They just don't give up. And I 
guess I would just ask any and all of you: So here we are, 31 
years later for me. Has it gotten better? Has it gotten worse? 
How successful do you think the Chinese Government is in 
consolidating that set of policies to their end, which is 
basically to make Tibet Chinese, culturally, ethnically, 
politically?
    Mr. Tethong. As far as we know, even though the Chinese 
have been very successful on a superficial level, we know--we 
believe that the Tibetans have not given in, so to speak. In 
fact, the Tibetan spirit is still very strong. And I think that 
is what drives people to send information out----
    Mr. Connolly. If I can interrupt you, so what has happened 
demographically? What percentage of Tibet today, population 
wise, is ethnic Han?
    Mr. Tethong. It is difficult to get exact demographics 
because----
    Mr. Connolly. Of course.
    Mr. Tethong [continuing]. The figures are controlled. But 
there may be anywhere from 1 million to 6 million Chinese on 
the Tibetan Plateau, which before 1959, may have been less than 
100,000.
    Mr. Connolly. That is right.
    Mr. Tethong. But most of these Chinese will come with 
special privileges. They have this ability to set up house 
right away without the house registration. They are given other 
incentives, through business and government, which are denied 
to many Tibetans right in that local area, including Tibetans 
from other parts of Tibet who are not allowed to move around. 
So, with all that incentive, there are increasing numbers of 
Chinese in the urban areas. But we also know that most Chinese 
would prefer not to be in Tibet because the high altitude is 
not the best place to be.
    Mr. Connolly. Right.
    Mr. Tethong. So that is another reality that is also 
unfolding at the same time.
    Mr. Connolly. But, still, a lot of people move there.
    If I am allowed one final observation: Mr. Gershman, so 
like the Presidents of the last two decades, Mr. Trump has met 
with the Dalai Lama, right? And the United States, both in the 
form of the Secretary of State and the President, when they 
have an opportunity with President Xi or other senior Chinese 
officials, we brought up Tibet, and human rights in Tibet, and 
the situation in Tibet consistently? Have I got that right?
    Mr. Gere. No, not at all.
    Mr. Connolly. Am I wrong?
    Mr. Gere. You are wrong.
    Mr. Connolly. Well, Lord almighty. Help clarify, Mr. Gere.
    Mr. Gere. No, His Holiness has not met with either Trump or 
Tillerson. And there is a question as to whether or not that 
will happen. I think it should happen. Of course, it should 
happen. It has happened since the first George Bush and in--I 
think it was 1991, I think, when the first meeting was. Every 
President since then has spent serious time with His Holiness 
and his representatives. But it has not happened thus far.
    Mr. Connolly. Well, final point----
    Mr. Gere. And we don't know----
    Mr. Connolly. I know. Thank you, Mr. Gere.
    I wanted Mr. Gershman just to talk about the political 
points. So are we using our diplomatic spigots to press home 
this case whenever we have that opportunity with senior Chinese 
officials?
    Mr. Gershman. I don't think so. I don't--the issue may 
occasionally get raised in a symbolic way when meetings take 
place. But what really I was calling for, in my brief 
testimony, was a comprehensive, integrated policy that 
recognizes the full scope of the challenge that is not just, 
you know, focusing on Tibet because it goes so much beyond that 
in China's global policy today. And its influence and power are 
expanding. You just have to look at the alarm in a country like 
India or in Japan to understand how the countries in the 
neighborhood are viewing this.
    And I think we need to be in touch with our allies on this. 
And we need to shape a coordinated policy which does--should 
put the issue on the table and raise the issue of human rights, 
but as I said in my testimony, I think we have to go beyond 
that. And we have to look at the fundamental, underlying issue, 
which is that the Tibet people are being denied their right to 
self-determination. The Dalai Lama has not--what the Dalai Lama 
wants with the Middle Way policy is genuine autonomy. He is not 
talking about independence. He is talking about genuine 
autonomy. And I think we have to get behind that and support it 
vigorously and also then to raise the issue of the status of 
Tibet.
    Mr. Yoho. I thank you for your time.
    Mr. Connolly. Mr. Chairman, thank you for your courtesy.
    Mr. Yoho. Yes, sir.
    We will next go to the lady from Florida, Chairman 
Emeritus----
    Ms. Ros-Lehtinen. Thank you very much. I am no lady; I am a 
Member of Congress.
    And to follow up on Mr. Connolly's remarks, I wanted to 
ask, Mr. Connolly, when you led that staffdel, was that when 
you were a member of the Senate Foreign Relations Committee? 
Because I have heard that rumor once or twice.
    Mr. Connolly. So I am going to break this news to you and 
confirm it: I was a senior staff member on the Senate Foreign 
Relations Committee----
    Ms. Ros-Lehtinen. I had no idea. I have never heard that.
    Mr. Connolly. Yeah. Yeah.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Connolly. You are more than welcome.
    Ms. Ros-Lehtinen. Well, Mr. Gere, you had--that is a 
private joke we have going.
    You had recommended in your testimony that the United 
States ``urge the new Chinese leadership to reevaluate the 
stability maintenance approach applied in Tibet and the 
dominance of the security apparatus.''
    I would like to ask you for your thoughts on whether this 
stability maintenance approach is having the positive impact on 
stability that it claims.
    Mr. Gere. Well, stability maintenance is the hard fist. 
That is basically what it is. There are no carrots associated 
with this at all. It is just blind and complete repression. 
There is no incentive for the Tibetans. It is an approach that 
is doomed to failure. And the only way that it could succeed is 
if they actually kill all the Tibetans. And they have created 
such a pressure cooker situation that, of course, there is a 
point where people feel that they have nothing to lose. And 
then you see these self-immolations.
    Now, there is very little violence against Chinese. It 
hasn't exploded that way. This is not a terrorist community. 
And the limited ability for Tibetans to express their pain and 
their suffering is releasing now in the self-immolations. I 
mean, it is one of the saddest things one could ever imagine. 
Monks and nuns and laypeople who, out of despair and love and 
compassion for their own people, their own culture, this is the 
only cry that they can make that can possibly be heard. The 
tools of expression are not given to them. They have been taken 
away in the extreme. So this is a policy that is doomed to 
failure on all levels unless it is complete genocide.
    Ms. Ros-Lehtinen. Horrific.
    And we have heard report after report today, Mr. Chairman, 
about the invasive, the restrictive, the brutal nature of the 
Chinese security apparatus as it attempts to erase the culture 
and the identity of the Tibetan people, demolishing Buddhist 
sites, attacking the language of Tibet.
    Do you think that this approach is undermining the very 
stability that it is attempting to institute?
    Mr. Gere. Well, look, we have been positing--and I think 
rationally, not just emotionally--the solution to the problem 
is the Dalai Lama. The solution is someone who is deeply 
respected and honored by the Tibetan people, who is an honest 
broker. If they sat down with him and said: Well, what is 
really meaningful to you? The reality is it is something they 
can freely give away. It is the free expression of their 
culture, their religion, their concern for each other as a 
community of like feelings and emotions and vision of 
possibility of the future. There is nothing negative in the 
Tibetan soul that would hurt the Chinese experiment.
    It is a fool's errand that the Chinese are on here that 
ultimately hurts them as well. This is a huge problem for them, 
Tibet. You think they want to have this hearing in the U.S. 
Congress and the kind of outrage that is expressing itself 
around the world of the treatment of Tibetans? It is no good 
for anyone. So it is a radical rethinking of this.
    But I also want to come back to what Carl was saying. Tibet 
is not an isolated situation. To deal with the Tibetan 
situation, you have got to see all of Asia. And you have to see 
the 100-year, the 200-year plan of China and how they will take 
over Siberia. They will take over the Turkestan areas. They 
will take over Southern Europe. There is no question about 
this.
    Ms. Ros-Lehtinen. The long-haul game that Mr. Perry----
    Mr. Gere. They are moving in that direction. And they are 
moving at a quicker pace than even they realized they could.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Chairman, thanks for letting me be a part of this 
subcommittee today. Thank you, sir.
    Mr. Yoho. I always enjoy having your input and your wisdom. 
And I appreciate it.
    I want to go back to something. You know, and I think, Mr. 
Gershman, you have all brought it up. And that is the 
aggression of China. And I think you are spot on. And we have 
said this before, that they are going to fail. China will fail 
at this because they fear freedom and liberties. But that is a 
universal belief all people have. They want to be free. They 
want to be self-determining. They want to be self-governing. 
And we are so fortunate in this country to have a system that 
allows that. And we need to sometimes take a pause and look at 
that and really embrace the freedoms we have in this country 
because it doesn't take you long to go to another country to 
see what is happening, the encroachment on freedoms. I mean, 
the guy in North Korea that was trying to get out, they shoot 
people trying to get out of their country, and we have got 
people wanting to come into our country. It is backwards. And 
China will continue to fail until they embrace their people and 
empower them. Yeah, they are doing great right now. But it is 
not long term.
    With the 19th Communist Party Congress that was in China 
where Xi Jinping consolidated his power--and this is almost a 
rhetorical question--how do you believe Xi Jinping's elevation 
will affect Tibet, for the better or for the worse?
    Mr. Gere. There is nothing to indicate that he is a good 
guy, okay?
    Mr. Yoho. Mr. Tethong?
    Mr. Tethong. From what we have seen in the last 5 years of 
his tenure, first, things have gotten worse in Tibetan areas 
and restrictions have increased. And the deliberate attempt to 
diminish Tibetan culture and identity is very apparent. So I 
think it is difficult to see anything promising in the near 
future.
    Mr. Yoho. You are right. And the same thing is going on in 
Taiwan and in Hong Kong. And they are influencing--I mean, even 
South Korea. The effect China has on Australia now is mind 
boggling.
    Mr. Gershman, do you have anything you want to add to that?
    Mr. Gershman. Well, you are absolutely right, Mr. Chairman. 
I think what we are seeing today around Asia, including 
Australia, yes, is alarm at what they see as a retreating West 
and an expanding China, an expanding influence of China.
    I just want to mention one thing in response to 
Congresswoman Ros-Lehtinen's point about the failure of the 
Chinese policy. I quoted in my testimony the 29 Chinese 
dissidents who were calling for dialogue with the Dalai Lama, 
one of whom, the lead one, was Liu Xiaobo. And they said that a 
country that wishes to avoid partition of its territory must 
first avoid divisions among its nationalities. And they call 
for eliminating animosity that brings about--to bring about 
national reconciliation.
    The more they oppress the Tibetan people, the greater the 
likelihood is that there will be less willingness to try to 
reach some kind of a compromise, more readiness to resist. And 
that is what we are seeing today. It is a desperate form of 
resistance today. But, you know, as you suggest, Mr. Chairman, 
authoritarian rule is never secure. And I think that we have to 
have patience.
    The Chinese have patience. We have to not only have 
patience and embrace freedom. We have to recognize that we do 
have rivals. Those rivals have plans. And we have to develop 
strategies to try to deal with the threats that we face in a 
realistic and comprehensive way, building alliances, as Richard 
says, because I think there are a lot of countries that are 
looking to us now to support in leadership on this and are 
very, very concerned with the international environment today.
    Mr. Yoho. Thank you for your comments.
    Mr. Scott Perry, you got a second round of questions?
    Mr. Sherman wanted to hold off for a minute.
    Mr. Perry. Well, then I will indulge him.
    The struggle over the next Dalai Lama. Just like Hong Kong, 
we fully expect the Chinese to influence that to the maximum 
that they can, and I wonder two things. What will the Tibetan 
people do when they see the overt interference and a puppet--is 
there such thing as a puppet Dalai Lama, so to speak? But I 
mean, as horrific and--just as horrific as that sounds, I am 
sure that the Chinese Government doesn't care. What would the 
people of Tibet do? And what should the United States be doing 
in advance of that expectation to ensure that the Chinese 
either decide that is not in their best interest or to dissuade 
them as much as possible?
    Mr. Tethong. Well, I think if the Chinese recognize a so-
called puppet Dalai Lama, it is very likely that no Tibetan 
would really recognize him as the Dalai Lama. The last Panchen 
Lama which the Chinese recognized, he may be a decent young 
man, but he is finding very little open acceptance in Tibet 
itself. And his appearances, both among Tibetans and in China, 
is also very limited. I think the Chinese Government realizes 
that. So I don't think it will be a successful effort if they 
do that.
    As far as what we can do from there, I think making it very 
clear that it is absolutely ridiculous for a Communist Party 
institution to recognize Tibetan Buddhist institution. I think 
just pointing out how ridiculous that I think is the first step 
in trying to prevent the Chinese from doing that.
    Mr. Perry. But without the kind of the specter of the 
immediacy of the issue, so to speak, is anybody going to listen 
to that message? I hate to say it that way. But I just don't 
know that anybody is going to hear that without the urgency as 
opposed to after the current Dalai Lama passes.
    Mr. Gere. I think absolutely the U.S. Government should say 
it is up to the Tibetan people to make this decision. It was a 
laughable moment that--you know, His Holiness is an 82-year-old 
man. He was asked, who is going to be the next Dalai Lama? And 
he said, ``Well, the institution is up to the Tibetan people if 
they want a Dalai Lama. But, beyond that, if they want the 
Dalai Lama, I guarantee you I will not be born in a Chinese-
controlled area,'' at which point the Communist Party said, 
``It isn't up to the Dalai Lama to decide where he will be born 
next, it is up to the Communist Party,'' of course 
misunderstanding completely the logic process of transference 
of consciousness.
    The U.S. Government going on record as saying that it is 
not up to the Communist Party, it is up to the religious 
authorities of the Tibetan community to make that decision, and 
go beyond that and say, of the free Tibetan community, 
religious community, to make those decisions.
    Mr. Perry. And that would be something that we could 
include----
    Mr. Gere. Absolutely.
    Mr. Perry [continuing]. As Congress in----
    Mr. Gere. And most important.
    Mr. Perry. Yeah.
    Mr. Gere. Absolutely. That is terrific.
    Mr. Perry. Yeah. That would, to me, be simple, right? That 
would be simple.
    Mr. Gere. Yes. Straightforward.
    Mr. Perry. Should the United States limit the travel of 
Chinese diplomats or at least raise the specter of limiting the 
travel of Chinese diplomats until we see any movement at all? I 
mean, I don't see any positive direction in this relationship 
between China and Tibet in my lifetime. I don't see any. So, to 
me, we need some game-changers here. So would that be something 
at least to discuss that would, at a minimum, slow down, for 
instance, the Chinese's--China's slow and methodical 
strangulation of Tibet? Would it at least have them take pause, 
even to just bring it up?
    Mr. Gershman. Well, the legislation raises the issue of 
reciprocation. And if journalists and U.S. officials and others 
are not permitted to travel to Tibet, then there should be a 
response to that from this country. In other words, we need a 
single standard. We need equality in this relationship. So I 
think the legislation that Congressman McGovern has drafted, as 
I have seen it, addresses this point well.
    Mr. Perry. Yeah. It would seem that most Americans and most 
people around the globe would agree that equal reciprocity is 
realistic and not beyond the realm of fairness, right? So----
    Mr. Gershman. Absolutely. And I think--on your previous 
point, I just want to say that it is a fundamental issue of 
religious freedom. And, you know, it behooves the United 
States.
    Mr. Perry. If not this country, who is going to stand up 
for that?
    Mr. Gershman. Everyone--I mean, in this country, we must 
stand up for religious freedom. And we have to get other 
countries to stand up for this fundamental right because what 
the Chinese are now doing, when the chief official of the 
Communist Party says that the Dalai Lama is betraying his own 
faith by saying that he might not reincarnate if--you know, you 
won't reincarnate if you cannot--if you cannot continue the 
work. If they are being prevented from continuing the work, it 
is not for the Chinese Communist Party to make that decision. 
They are preventing the Dalai Lama, and presumably his 
successor, from continuing the work of the Dalai Lama. It is up 
to the Dalai Lama and the Tibetan people to make that decision, 
not the Chinese Government. And I think we should stand up very 
vigorously for the principle of religious freedom.
    Mr. Perry. Thank you, Mr. Chairman, for your indulgence. I 
yield.
    Mr. Yoho. No. I appreciate it.
    Now, we will go to Mr. Sherman.
    Mr. Sherman. The idea that the Chinese Communist Party 
would make a theological determination offers some comic relief 
to what is otherwise a very serious hearing.
    Mr. Gershman. I once called that shameless impudence.
    Mr. Sherman. Mr. Gere, who is the appropriate body to 
identify the next Dalai Lama and to determine the existing 
Dalai Lama. The existing Dalai Lama has told us where he will 
not be reborn, but we don't know whether he will be reborn and 
in which, a young man or--I don't know the theology, whether it 
be a young man or young woman.
    Mr. Gere. It could be a woman. Could be a woman. Could be--
have a Western body. I mean, it is whatever----
    Mr. Sherman. What is the group of people that will 
officially identify for Tibetan Buddhists who is the next Dalai 
Lama?
    Mr. Gere. I can only give that to you generally. I can't 
give you the exact people. But certainly the religious 
community around His Holiness, the heads of the four schools of 
Tibetan Buddhism, certainly the heads of the Gelugpa school of 
Tibetan Buddhism would be intimately involved with this 
process.
    Mr. Sherman. The Catholic Church has identified for the 
world: These are the cardinals; this is where they will meet--
--
    Mr. Gere. It is not----
    Mr. Sherman [continuing]. And you are saying this is more a 
kind of----
    Mr. Gere. It is not as organized as that.
    Mr. Sherman [continuing]. A kind of consensus of----
    Mr. Gere. Well, it is quite possible, and this happened 
before, that this Dalai Lama will give indications of who he 
will be next time. And that will be part of the process.
    Mr. Sherman. Will he identify those individuals that have 
the capacity to determine----
    Mr. Gere. I would assume that is the case, yes.
    Mr. Sherman. Okay. I mean, the Catholic Church makes my job 
easier as a non-Catholic who has to deal with religions by--
this Pope will no doubt identify that these are the cardinals. 
And you can see how it will be easier for the United States to 
know who is the head of Tibetan Buddhism if the existing head 
of Tibetan Buddhism will tell us----
    Mr. Gere. You know, these are really good questions. And, 
to be honest, there are things in the works now that would 
clarify that exact issue, that there would be a recognized body 
that would present to the rest of the world. The Tibetans will 
know. They have always known.
    Mr. Sherman. And the heads of the major schools of Tibetan 
Buddhism, are they subject to Chinese pressure?
    Mr. Gere. Not outside. But certainly inside, yeah.
    Mr. Sherman. Well, I mean, I wonder, do they reside in----
    Mr. Gere. No. The heads, as we know them now, are in India 
or Nepal.
    Mr. Sherman. Okay.
    Mr. Gere. Yeah.
    Mr. Sherman. So, Mr. Gershman, and others. You can see how 
China just looks at this big piece of the map of the world and 
says, ``We want to control that,'' but this is an area of the 
world that has been sparsely populated because it is very 
difficult to create food there in significant quantities. Are 
there particular parts of Tibet where China says, ``Ah ha, that 
is where the gold mine is''? When they see economic 
development, where do they see it? What are they looking for?
    Mr. Gershman. I assume it is in the area of minerals. And 
they really are destroying the ecology of the area. And the 
monk I mentioned in my testimony, Tenzin Delek Rinpoche, one of 
the things he tried to do before he was arrested 13 years 
before his death in 2015 was to protect the environment because 
they really are destroying it and, of course, uprooting the 
nomads. And I think this is one really, really critical issue 
that we have to raise.
    Obviously, there are very significant water resources in 
the Himalayas which are also--the Chinese would want to use for 
the development of energy purposes. So there are a lot of 
economic interests that they would have, but the fundamental 
interest is geopolitical. And it has led to what is now----
    Mr. Sherman. And they are building islands in the South 
China Sea not because that is----
    Mr. Gershman. But, also, at the same time that they were 
doing that, there was almost, before the Party Congress, during 
the summer and into September, there was almost a military 
conflict. There was a military standoff with India over the 
Doklam Plateau which also involves Sikkim and Bhutan. And all 
of these areas are scared. And China backed off. I don't think 
they wanted a conflict before the Party Congress. But they are 
going to come back to those issues too. So they really have a 
very, very large geopolitical interest in maintaining that 
territory. And, you know, as I suggested, they invaded that 
territory. They occupy it illegally. And I think that has to be 
said.
    Mr. Sherman. I will ask one more question, and anyone else. 
Is there any concern in Beijing that their access to the U.S. 
market for all their exports could in any way be affected by 
their persecution of the people of Tibet?
    Mr. Gere. I mean, there is no reason for them to fear it. 
We have rolled over.
    Mr. Sherman. Right.
    Mr. Gere. The U.S. has rolled over. And, unfortunately----
    Mr. Sherman. I think that answers it. And the question for 
us is, what do we do to change the answer to that through our 
policy?
    I will yield back.
    Mr. Gere. Well, I think what we discussed before, and Mr. 
Perry, I think, very cleanly described the way forward. There 
were half a dozen clear, simple, rational things that we can do 
and make part of our law. And if it is immediately making it 
the sense of the Congress, so be it. Move it into the territory 
of absolute law as the Tibet Policy Act is.
    Mr. Yoho. Well, they have called votes, and we have to go. 
But I want to tell you how much we really appreciate this. And 
what we look for--I don't like to have meetings to have 
meetings. We like to have legislation come out of this. And we 
will round up the members that were here, bring some ideas 
together, and you should see some positive movement.
    I was at a conference a couple of years ago, and we had a 
lot of the generals, retired generals, active generals, of the 
United States. And they were saying that we are going through a 
tectonic shift in world powers that we have not seen since pre-
World War II. And now we see the rise of China with the 19th 
Congress and Xi Jinping came out and said that the era of China 
has come, that it is time for them to take the world stage. You 
know, I find that very threatening. And, as you have said, we 
have fed this monster because we demand cheap things. And it is 
time to change the narrative and just say: The game is over, 
and we are going to invest in like-minded allies. Like-minded 
allies believe in liberties and freedoms, those things that we 
talked about, the things that we hold dearly in this country. 
And I think you are seeing the world divide along these lines. 
What we know is a government that expects the people to serve a 
party I don't think will be long-lasting, as you brought up, 
whereas you have a government that serves the people is the way 
to go. And I think the good guys will win on this.
    Mr. Gershman. I want to thank you, Mr. Chairman. Your voice 
and the voice of your colleagues is extremely important on this 
issue and on the issue of freedom fundamentally. And I want to 
thank you.
    Mr. Yoho. Well, I appreciate you all. Have a good time.
    Mr. Gere. Listen, from my side, I think this is one of the 
best testimonies and interactions with all of you in Congress 
that I have ever seen. And I want to thank you from the bottom 
of my heart, and I think everyone else here who cares about 
Tibet. Thank you so much.
    Mr. Sherman. I want to point out. She doesn't want me to 
mention her. But there is, of course, a Special Coordinator for 
Tibet. My wife served in that office for several years. She 
continues to work at the State Department in human rights. So I 
want to give her a shout out.
    [Whereupon, at 4:17 p.m., the subcommittee was adjourned.]

     
                            A P P E N D I X

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
